<html>
<title> - WOMEN'S ROLE IN COUNTERING TERRORISM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  WOMEN'S ROLE IN COUNTERING TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                           Serial No. 115-111

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
        
        
Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-824PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>                     
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                             ---------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Valerie M. Hudson, Ph.D., professor and George H.W. Bush Chair, 
  The Bush School of Government and Public Service, Texas A&M 
  University.....................................................     6
Mr. Haras Rafiq, chief executive officer, Quilliam International.    11
Ms. Farhat Popal, manager, Women's Initiative, George W. Bush 
  Institute......................................................    27
Ms. Jamille Bigio, senior fellow for women and foreign policy, 
  Council on Foreign Relations...................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Valerie M. Hudson, Ph.D.: Prepared statement.....................     8
Mr. Haras Rafiq: Prepared statement..............................    13
Ms. Farhat Popal: Prepared statement.............................    30
Ms. Jamille Bigio: Prepared statement............................    36

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59

 
                  WOMEN'S ROLE IN COUNTERING TERRORISM

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ted Poe (chairman 
of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order.
    Without objection, all members may have 5 days to submit 
statements and questions, extraneous materials for the record 
subject to the length limitation in the rules. I recognize 
myself for an opening statement.
    The spread of terrorism and extremist ideas has claimed 
countless lives, destroyed hundreds of communities and spawned 
radical groups around the world. Women in particular have long 
been the victims of these radical ideas.
    Just last week, the terrorist group Boko Haram targeted a 
girls' school in Nigeria and abducted more than 100 young 
girls. This incident follows the 2014 abduction of 270 Nigerian 
school girls of which 112 are still missing.
    These acts are far from uncommon among Islamic terrorist 
organizations. Across the world, jihadist networks subject 
women and young girls to horrendous human rights violations.
    These male-dominated extremist groups frequently deny basic 
rights like access to education or political representation to 
women as a core component of their ideas.
    Terrorist groups like ISIS and Boko Haram are often the 
worst abusers of women, forcing them into marriages and sexual 
slavery. It should be no surprise that the status of women in a 
society is often an important indicator as to how vulnerable it 
is to violence and radicalization.
    Yet, while being one of the primary targets of terrorist 
groups, women are also being radicalized and recruited into 
these groups. Some support the group's operations, enforce its 
laws, or marry, and bear children of terrorist fighters. Others 
actually commit these acts of terror.
    In recent years as many as 3,000 women have traveled to the 
Middle East to join ISIS with many becoming female suicide 
bombers.
    Despite the marginalization and brutality of women in 
extremist-held lands, repressive regimes, persistent conflict, 
and poor development policies sometimes create conditions that 
make groups like ISIS to be seen as an opportunity for women.
    Once radicalized, terrorist organizations will leverage the 
status of women to further their violent goals. For example, 
Boko Haram has exploited cultural perceptions of women in 
Nigeria as nonviolent and unlikely to be involved in terrorism, 
to use them as intelligence and recruiting tools.
    In our effort to combat terrorism and extremism abroad, we 
have neglected the important role of women and how they can 
play a part in actually preventing radicalization and 
facilitating peace building in areas long worn by violence.
    Women are well placed in homes, schools, and communities to 
challenge extremist narratives. Research shows that 
antiterrorism messages can be more effectively spread by women 
because they are more directly involved with those most 
vulnerable to the terrorist recruitment of the world's youth.
    Given their importance in families and communities, it's 
essential that women both at home and abroad are more 
meaningfully enlisted in the fight against terrorism.
    Two years ago, as French police hunted for the mastermind 
behind the Paris attacks that killed 130, it was a woman who 
reported the whereabouts to the police.
    Her role as a surrogate mother to family members of the 
attacker allowed her access and trust that men unfamiliar to 
the family would have never gained.
    Her brave action prevented a planned follow-on attack. 
Examples such as this demonstrate the crucial role of women in 
spotting emerging violence and gaining trust within families 
and communities.
    Unfortunately, we often lack their perspectives because 
women are underrepresented in governments where terrorist 
groups are most active.
    Because of their better ability to build trust, women have 
proven to improve the outcomes of conflict mediation and peace 
building.
    A study of 40 peace processes in 35 countries over the past 
30 years found that when women were involved, more agreements 
were reached, implemented, and sustained.
    As more and more terrorist groups threaten our country, our 
allies, and our interests, it is vital that we leverage the 
talents and perspectives of women as part of a bigger approach 
to ensure security at home and abroad.
    It must be the policy of the United States that as we work 
in societies damaged by years of war and political unrest we 
empower women to have a larger voice.
    In this fight against terrorism, we need everybody at the 
table, especially women. And I will yield to the gentleman from 
Massachusetts, the ranking member, Mr. Keating, for his opening 
statements.
    Mr. Keating. Thank you, Chairman Poe. I would like to thank 
our panel for joining us on this very important topic.
    Quite frankly, in 2001 no one imagined how much the threat 
of terrorism would, indeed, change. The days of countering 
terrorism through undermining and eliminating self-contained 
organizations is over.
    Despite many successes, we often feel like we are playing a 
rigged game of Whac-A-Mole and all the while the organized 
groups like al-Qaeda or Boko Haram continue to survive and 
evolve as ever present and legitimate threats to the United 
States and our allies.
    Our security agencies here in the United States and those 
of our allies have been working tirelessly to adapt to a 
changing landscape, and as we have come to understand the new 
terrorist threats we face in foreign fighters and lone wolves, 
and the often unpredictable radicalization of vulnerable 
individuals in our communities, fortunately we have the ability 
to learn more about these new approaches and new actors who are 
critical to the fight against terrorism, and actors who really 
should have been a part of the strategy all along.
    Civil society, the rule of law, and the focus of our 
hearing this afternoon--women--are integral to our success in 
countering the terrorist threats we face today.
    By consistently failing to meaningfully engage women in 
combating terrorism and extremism, we are failing to not only 
address part of the problem but we are failing to pursue a 
whole new range of solutions.
    Our mission is to be most effective and efficient in 
keeping Americans and our allies safe from terrorism and to 
have this exclusion continue or not to maximize this important 
resource is unacceptable.
    Roughly half the world is made up of women. Half the 
victims of terrorism are women. In communities struggling to 
rebuild and achieve security and stability again after a 
terrorist threat has finally been temporarily kept at bay, 
roughly half the people in that community will be women.
    And yet, when we look at the breakdown of who is empowered 
to have a meaningful role in combating terrorism, women are 
severely under-represented. At a time when resources are tight, 
when we can't seem to have a single sustained success story of 
eliminating a terrorist threat anywhere, and when instead the 
problem might be growing, why are we tying one of our hands 
behind our back?
    When we think about radicalization and terrorism, there are 
always warning signs. A parent notices her child's behavior, 
notices whether there has been a recent change in that 
behavior.
    A teacher notices one of her students has been increasingly 
withdrawn in class. They change their appearance or their 
opinions have started to become more extreme.
    Often, women are on the front lines of noticing these 
warnings signs associated with radicalization. What resources 
do they have when they are faced with a situation?
    Far too often, women don't know or trust who they can go to 
with that information or, worse yet, when some of them brought 
their concerns to law enforcement, they are ignored.
    Fortunately, this has been changing, thanks to the 
incredible strength and determination of countless women around 
the world as well as many men who early on understood the 
importance of supporting these women in their mission.
    Thanks to them, we finally started to move in the right 
direction. Congress passed the Women, Peace, and Security Act 
last fall, which will require a strategy be in place to promote 
the participation of women in U.S. foreign policy.
    More research has been done to show the benefits achieved 
when women have a seat at the table and more women than ever 
before have been able to join the ranks of their male 
counterparts in the security sector and in leadership posts 
where they have a real role in fighting terrorism and shaping 
peaceful resolutions to conflict.
    We still have a very long way to go, however, and the 
threats we face from terrorism are not going to sit patient 
while we get there.
    The whole of government approach does not mean listening to 
and working with just half the resources we have available to 
us in tackling these threats.
    I, therefore, look forward to hearing our witnesses today. 
I hope that we can discuss lessons learned so far, the gaps 
that still remain, and including women alongside men in efforts 
to combat terrorism, and what we can do about it, what we 
should be doing in terms of our foreign assistance, our 
military assistance, our diplomatic missions, and our 
intelligence missions.
    What must men start doing differently and what changes do 
we need to start making things happen now so that our 
counterterrorism strategy is no longer just half of what it 
could be?
    I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    And without objection, the chair will recognize the gentle 
lady from Florida, Ms. Frankel, for an opening statement.
    Ms. Frankel. Thank you, Mr. Poe and Mr. Keating, for 
convening this meeting.
    For too long, women's diverse roles in countering and 
supporting violent extremism has been overlooked and it just 
needs more attention. I am glad we are doing that today and I 
thank you, all of you, for being here.
    Ignoring half of the population in the fight against 
radicalism leaves us with a strategic blind spot and when it 
comes to violent extremism women can be victims, preventers, 
and perpetrators.
    You know, terrorists do not succumb their victims only with 
bullets and bombs, as we know. Rape, trafficking, and abuse of 
women have become all too common weapons of war.
    Women are often the first targets of terrorist 
organizations. ISIS has abducted and raped thousands of women 
and girls and even used income generated from human trafficking 
to fill their coffers.
    In Nigeria, Boko Haram has kidnapped hundreds of girls and 
subjected them to countless horrors. Last week, another 110 
girls went missing from a group that attacked another school.
    The Taliban have attacked girls in Afghanistan, in 
Pakistan--like we heard about that wonderful young girl, 
Malala--simply for trying to get an education.
    And, sadly, women are not always the innocent. They also 
support and engage in terrorism. In sub-Saharan Africa, three 
out of four child suicide bombers are girls and 18 percent of 
all suicide bombers are women, and I am sure there is a lot of 
complicated reasons for that that hopefully some of you will 
address.
    When the former wife of a Boko Haram commander was asked 
why she willingly joined the group, she said they offered her 
more money, power, and protection than what she was getting 
within her own community.
    Recent research has shed light on factors that lead women 
to be recruited into terrorist organizations: False promises of 
protection, escape from an abusive home, and leadership 
opportunities.
    But we still have a limited understanding of what's driving 
these women in the wrong direction. And as mentioned by my 
colleagues, women can be and should be on the front lines of 
countering terrorism, and are uniquely situated to detect early 
signs of radicalization in youth, especially as mothers.
    And whatever--many times their warnings are disregarded and 
we have to figure out ways to empower them and I hope we will 
hear some suggestions on that.
    I have lots of questions but I am going to wait until it's 
my turn to ask and, again, I thank you all for being here on 
this very important subject.
    Mr. Poe. The gentle lady yields back her time.
    I now will recognize each of the witnesses and I would 
advise all of you that your statements are prepared--your 
prepared statements are a part of the record and try to keep 
your statements to no more than 5 minutes and then each member 
of the panel or each member of the committee will ask you 
questions.
    Dr. Valerie Hudson is professor at the George H. W. Bush 
School of Government and also is the chair of the Department of 
International Affairs at the Bush School of Government at Texas 
A&M University where she directs the program of Women, Peace, 
and Security. She previously taught at Brigham Young, 
Northwestern, and Rutgers Universities.
    Mr. Haras Rafiq is CEO of Quilliam International. He is 
currently a member of the United Kingdom's Prime Minister's 
Community Engagement Forum Task Force and was formerly a member 
of the U.K. government's task force looking at countering 
extremism in response to the 2005 terrorist bombings in London.
    Ms. Farhat Popal serves as the manager of the Women's 
Initiative Fellowship and the Afghan Women's Project at the 
George W. Bush Institute at SMU, not to be confused with the 
Texas A&M Institution where your cohort, Dr. Hudson, works.
    Previously, she worked at the State Department's Bureau of 
Democracy, Human Rights, and Labor, and as special inspector 
general for Afghanistan reconstruction.
    And Ms. Jamille Bigio is a senior fellow at the Women and 
Foreign Policy program at the Council on Foreign Relations. 
Previously, she has served as director of human rights and 
gender on the White House National Security Council staff.
    Dr. Hudson, we will start with you and you have 5 minutes. 
When that red light comes on, that means you're supposed to 
stop.
    Ms. Hudson. I'll do my best.
    Mr. Poe. If you see it.
    Ms. Hudson. Thank you so much.
    Mr. Poe. In case you were wondering what that meant.

  STATEMENT OF VALERIE M. HUDSON, PH.D., PROFESSOR AND GEORGE 
   H.W. BUSH CHAIR, THE BUSH SCHOOL OF GOVERNMENT AND PUBLIC 
                 SERVICE, TEXAS A&M UNIVERSITY

    Ms. Hudson. I am grateful to be here today. Thank you so 
much for inviting me. I hope my short remarks on the linkages 
between male-female relations, radicalization, and terrorism 
may be of use to you.
    My research team at the Women's Stats Project has been 
examining the relationship between gender and equality, 
marriage market obstruction, on the one hand, and the security 
and stability of nation states on the other for some time now.
    This research is most recently funded by the Minerva 
Initiative of the U.S. Department of Defense. In our efforts, 
we have concentrated on women's personal empowerment, or 
disempowerment, at the household level rather than examining 
broader indicators such as female literacy, female labor force 
participation, or female parliamentary representation.
    Rather, we examine things that are closer to home for women 
such as property and inheritance rights, rights in marriage, 
rights in divorce and custody, level of violence against women 
in the home--in total, 11 such indicators of women's 
empowerment or disempowerment at the household level.
    Then, using large and multi varied modeling measure 
techniques, we found that this disempowerment--household 
disempowerment measure is strongly significantly related to 
multiple measures of political instability, autocracy, lack of 
freedom, corruption, and internal conflict in the state.
    In fact, the overall best predictor of state stability and 
security was not our control variables such as how urbanized 
the society was, how fractionalized the society was, colonial 
status, and several others, but rather women's disempowerment 
at the household level was the most predictive variable.
    Why would there be such a strong and significant 
association? We argue that the character of male-female 
relations at the household level is, if you will, the first 
political order within any human society and this order shapes 
the development of the nation state in indelible ways.
    If the household is an autocracy where men rule over those 
who are different from them--women--if men feel they have the 
right to use physical force against those who are different 
from them--women--if men feel entitled to greater access to 
household resources than those who are different from them--
women--this is the template that will be applied to all who are 
deemed different in the larger society.
    This explains why Elin Bjarnegard and her co-authors have 
found that men holding deeply gender unequal beliefs also hold 
far more hostile attitudes toward minority and foreign nations 
and are significantly more likely to be involved in committing 
political violence.
    How women are treated by men becomes, if you will, a boot 
camp training men in the arts of violent and exploitative 
autocracy.
    Does the boot camp hypothesis hold for terrorism as well? 
Yes, it does. Again, using the same techniques, we found every 
measure of terrorism we examined such as the political 
terrorist scale, terrorism impact score, terrorism fatalities 
was strongly, significantly associated with women's personal 
disempowerment at the household level.
    Train men to terrorize women and you train them in 
terrorism. Relatedly, this also helps explain why the 
overwhelming majority of mass shooters in the U.S. have 
histories of domestic violence.
    We also undertook the second angle of investigation into 
the links to terrorism. We examined nations' comparative rates 
of production of foreign fighters going to fight for ISIS.
    Adjusting for total population size, which nations are 
producing more or less of these foreign fighters? Using data 
from the Soufan Group on estimated numbers from each country, 
again, a strong and significant relationship between the 
national production rate of foreign fighters and our measure of 
women's personal disempowerment at the household level.
    This is the second corroboration of the boot camp 
hypothesis and I'd like to note this particular research was 
conducted by my graduate Capstone research team at the Bush 
School of Government and Public Service for the Office of 
Global Women's Issues at the State Department.
    There are also additional ways. By creating structural 
instabilities--well, you talked about Boko Haram. Well, one of 
the structural instabilities is bride price--the price that a 
groom must pay to a bride's father to marry.
    Bride price is subject to extreme inflation and bubbles 
over time, and this means that young men are priced out of the 
marriage market.
    Boko Haram kidnaps these girls so that young men without 
bride prices may marry. In a like manner, polygyny and sex 
ratio alteration also create chronic instability within the 
system, goading young men into grievance and political 
terrorism.
    In conclusion then, by providing a training course in 
terrorism, creating structural instability within a society, 
and disempowering the very voices that might be most persuasive 
arguing against terrorism--women--the character of male-female 
relations is a strong determinant of the horizon for peace and 
security within the society.
    Thank you very much.
    [The prepared statement of Ms. Hudson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, Dr. Hudson.
    Mr. Rafiq, thank you for being here. Thank you for coming 
across the pond, so to speak, to be here to testify at this 
hearing. We appreciate it very much.
    You may proceed with your testimony.

STATEMENT OF MR. HARAS RAFIQ, CHIEF EXECUTIVE OFFICER, QUILLIAM 
                         INTERNATIONAL

    Mr. Rafiq. Thank you, Chairman Poe, Ranking Member Keating, 
and Member Frankel for inviting me to travel across the pond 
and speak on this very important subject.
    My colleague--my executive director at Quilliam U.S. would 
have been here but he's in Nigeria right now training male and 
female members of civil society on critical thinking to tackle 
terrorism.
    Quilliam is an organization that operates in three 
countries--the U.K., U.S., and Canada--and it's an organization 
that was set up by former extremists to challenge Islamist 
terrorism and Islamist ideology.
    I think it's very important that we use the correct 
terminology and we use Islamism and differentiate between 
Islam, because just as there's a difference between the word 
social and socialism, there is a difference between Islam, 
which is a religion that's practiced by Muslims around the 
world in many different ways.
    Islamism is a distinct political ideology when merged with 
certain Salafi Wahhabi theology is one interpretation and is 
part of a civil war that's going on within Islam right now.
    Chairman Poe, you're absolutely right that women are 
ideally placed to be primary and secondary intervention 
providers because of their proximity, their prestige, and their 
passion.
    They are much more effective than any government 
initiatives direct or any governments can be and quite often 
are more effective than men when it comes to providing these 
interventions for young male and female members of their 
families.
    In order to understand and the best way to actually look at 
projects to prevent terrorism--we need to look at the 
radicalization process and there are four key aspects to it.
    The first one, there has to be a grievance, whether it's 
genuine, partial, or perceived. The second one, there has to be 
a charismatic recruiter or recruiters that will recruit people 
who have these grievances.
    The third thing is there has to be an identity crisis. 
People have to be told that the only way they're going to find 
solutions is if they join a particular Islamist gang, and the 
fourth one is the ideology of Islamism itself that actually 
provides solutions for some of these people.
    In the case of women and our ground-breaking research, 
which I co-authored, called ``Caliphates: Women and the Appeal 
of Islamic States,'' the four main solutions for women were the 
following--the first one, the promise of empowerment; the 
second one, the promise of deliverance; the third one, the 
promise of participation; and the fourth one, the promise of 
piety.
    Once we understand these processes, we can start looking at 
projects on ways of actually preventing terrorism, and I just 
want to touch very briefly on four projects that we've worked 
on--or that we've run--and you can read more about them in the 
written testimony.
    The first one is the current project in Nigeria, which is 
around critical thinking, which our--my executive director, 
Mohammed Rahim, is delivering right now. It's on critical 
thinking.
    The second one is AMATE, which is the American Muslims 
Against Terrorism and Extremism. We run that with our partners 
in the U.S., Masjid Muhammad and also with Greene Street 
Communications, and in fact the project is led by an African-
American Muslim woman, Jamilah Fraser.
    And since its launch on January the 8th of this year, we've 
reached 705,000 people out of which 65,000--sorry, 86,000 
people have been women, and I can go into the demographics a 
little bit more.
    The third one is the rehabilitation of former terrorists 
within the U.K. There have been a number of people that have 
been released here in the U.S. over the last 12 months and 
we've worked with some of them, male and female, and there will 
be some news and some announcements that we'll have where we've 
de-radicalized, used models that we've used in other countries 
to de-radicalize individuals here in the U.S. And by the way, 
there are just under 20 further people that we--convicted 
terrorists in the U.S. that we release within the next 12 
months.
    The fourth one is FATE, which is Families Against Terrorism 
and Extremism, and that's one of our flagship programs where 
we've operated in 22 countries with 115 organizations.
    Ten thousand providers of services have been the 
beneficiary of training. We've up-scaled--we've trained people 
in North Africa and in central Europe as well, and again, we've 
helped them build messages and really used women and families 
to actually become this bulwark against terrorism.
    There are about 12 recommendations in my testimony but the 
gist, really, of the recommendations are around the following.
    At this moment in time, we are actually playing Whac-A-
Mole. We are actually focusing on a strategy that is about 
terrorism prevention, and once we actually contain one global 
jihadist terrorist threat, there is a new one that pops up.
    But ISIS and al-Qaeda didn't breed extremism. Extremism 
bred them. In order to actually become more effective, we have 
to recognize that there is a global jihadist insurgency and we 
also need an effective counter extremism strategy which 
actually works with women, empowers women, and empowers civil 
society as a whole to take on this challenge and counter the 
narratives that would radicalize our youngsters.
    Thank you.
    [The prepared statement of Mr. Rafiq follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you very much.
    Ms. Popal.

  STATEMENT OF MS. FARHAT POPAL, MANAGER, WOMEN'S INITIATIVE, 
                    GEORGE W. BUSH INSTITUTE

    Ms. Popal. Chairman Poe, Representative Keating, and 
distinguished members of the subcommittee, it is an honor to 
appear here today.
    My name is Farhat Popal. I work on the Women's Initiative 
at the non-profit nonpartisan George W. Bush Institute in 
Dallas, Texas. I am also Afghan American, so this issue is of 
great importance to me.
    At the Bush Institute, we believe women are essential to 
the development of peaceful, open, and prosperous societies. 
Our Afghan Women's Project has worked to ensure the expansion 
of women's rights in Afghanistan and we regularly engage with 
remarkable leaders, from civil society advocates, to peace 
builders, to first ladies.
    We also support Mrs. Laura Bush in her role as honorary co-
chair of the U.S.-Afghan Women's Council. My comments today 
will focus on women's role in countering violent extremism in 
Afghanistan.
    I will also discuss how women's meaningful inclusion in 
leadership can help build resilient communities. Here are the 
three points I would like to leave with you today.
    First, Afghan women drive education, growth, and self-
reliance. They are essential to Afghanistan's stability and we 
must continue to support them.
    Second, Afghan women help build resilient communities and 
participate in peace building at all levels of society. We must 
ensure their voices are represented in the peace process.
    And third, what happens elsewhere in the world matters here 
at home. It is in our national security and moral interest to 
support sustainable development in Afghanistan.
    Afghan women and girls have made enormous strides in areas 
such as education and employment but continue to be impacted by 
gender-based violence, limited access to justice, and violent 
extremism.
    In the 2017 survey of the Afghan people by the Asia 
Foundation, 92 percent of Afghans say they fear encountering 
the Taliban and 94 percent fear encountering ISIS.
    I share this to show both the magnitude of the problem and 
the Afghan people's rejection of extremism. All Afghans benefit 
from effective CVE efforts but Afghan women gain the most.
    They also have the most to lose if their hard-won rights 
are negotiated away. At the family and village level, Afghan 
women play a key role in mediating conflict, building trust and 
dialogue in the community, and counseling family members.
    With over 63 percent of the population under the age of 25, 
mothers also can have a profound influence on their children 
through education.
    Today, thanks to the U.S. and Afghan governments and the 
international community, more than 9.2 million children are 
enrolled in school of which almost 40 percent are girls, and 
the percentage of college-age students enrolled in higher 
education has risen from 1 percent in 2001 to almost 10 percent 
today.
    At the national level, 12 out of 63 members of the High 
Peace Council are women. This visible presence is important. 
But women must also have actual influence and authority.
    In the 2017 initiation of the Afghan-led Kabul Process, 
only two of 47 representatives were women. This marginalizes 
their presence and their voice.
    Women have been instrumental members of provincial peace 
councils, encouraging local insurgents to participate in talks 
and facilitating a release of hostages.
    As Chairman Poe mentioned, research shows that women's 
meaningful participation in a peace negotiation makes the 
resulting agreement 35 percent more likely to last at least 15 
years.
    CVE is also about more than security. It's about creating 
resilient communities that are built upon strong social 
connections, trust, and dialogue.
    They're also built on inclusion. Afghan women are a key 
part of these efforts. Last October, the Bush Institute met 14 
women leaders from the Middle East, North Africa, and 
Afghanistan who are advancing economic opportunity and, 
ultimately, peace and prosperity in their countries.
    We met Nadia Behboodi of the American University of 
Afghanistan who is working to support women-owned businesses 
through training, capital, and access to business and IT 
support.
    We reconnected with Manizha Wafeq, featured in our book, 
``We Are Afghan Women: Voices of Hope,'' who advocates for 
women's economic rights through the Afghanistan Women Chamber 
of Commerce and Industry.
    According to the chamber, women entrepreneurs have invested 
more than $66 million in the Afghan economy and created more 
than 47,000.
    Afghan women have a staunch advocate in First Lady Rula 
Ghani. Last fall, Ms. Ghani joined Ms. Bush on Capitol Hill in 
their roles as honorary co-chairs of the U.S.-Afghan Women's 
Council, a key public-private partnership that was established 
in 2002.
    They discussed the importance of advanced training and 
mentoring and urged us to see Afghan women as the leaders and 
partners they are, not as victims.
    If I can leave you with one key point, it is this: Women's 
meaningful inclusion in all aspects of society--social, 
political, and economic--is essential for Afghanistan's 
stability and prosperity.
    Here is how we can help. First, we must consider local 
contexts in causes of violent extremism to inform effective CVE 
strategies and women's role in them, and by building local 
capacity, communities can sustainably lead their own efforts.
    Second, we must continue to support and fund sustainable 
development in Afghanistan that is aligned with national level 
policies and priorities.
    Stability requires equal access to justice, respect for 
human rights, effective rule of law and good governance, and 
transparent, effective, and accountable institutions. It also 
necessitates access to quality education.
    These efforts will help undermine extremist narrative and 
will take both public and private sector engagement.
    Perhaps most importantly, we must continue to invest in 
women and guarantee their meaningful inclusion in peace 
building.
    The bipartisan Women, Peace, and Security Act of 2017 is an 
important step in this direction but it must be implemented and 
funded to make a difference.
    In sum, Afghan women are making a profound impact on a 
daily basis and it is in our interest to support them.
    Thank you.
    [The prepared statement of Ms. Popal follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you very much.
    Ms. Bigio.

  STATEMENT OF MS. JAMILLE BIGIO, SENIOR FELLOW FOR WOMEN AND 
          FOREIGN POLICY, COUNCIL ON FOREIGN RELATIONS

    Ms. Bigio. Thank you.
    Chairman Poe, Ranking Member Keating, and distinguished 
members of the committee, thank you for the opportunity to 
testify before you today.
    By convening this hearing, Congress is sending a bipartisan 
signal that the United States can no longer afford to ignore 
how women's participation will improve the effectiveness of 
counterterrorism efforts.
    As you noted, extremist groups use women to their 
advantage, recruiting them on the one hand as facilitators and 
martyrs and, on the other hand, benefiting both strategically 
and financially from their subjugation.
    A counterterrorism policy has not been as effective at 
understanding how women can improve security efforts. We see 
extremist groups target women and girls. We see some groups use 
sexual violence to terrorize populations, displace civilians, 
and generate revenue.
    Extremist groups also recruit women to act as informants 
and facilitators. Close to 20 percent of foreign fighters from 
Europe who join the Islamic State are female and women have 
proven effective in all roles assigned to them by extremist 
groups including as suicide bombers.
    When groups use female suicide bombers they are taking 
advantage of the relative absence of women in police and 
military forces and makes it easier for women to hide suicide 
devices, knowing that there is a good chance they will not 
encounter a female security official and therefore will not be 
searched.
    While extremist groups are strategically using women to 
their advantage, there is an opportunity for counterterrorism 
policy to draw more on the opportunities of how women can 
contribute.
    Women are already on the front lines of countering violent 
extremism, as we witness female police officers engaging with 
local communities to prevent violent extremism; female imams, 
and other religious leaders preaching religious tolerance and 
women countering efforts to radicalize their husbands, 
children, and communities.
    On the military side, former U.S. Special Operations 
Commander Admiral William McRaven observed that including women 
opens up possibilities for interactions with local populations 
that increases the effectiveness of the overall mission.
    Despite these advantages, U.S. Government policy and 
programs pay little attention to the role of women. To 
strengthen these efforts, the U.S. Government should pursue the 
following steps.
    First, the forthcoming U.S. national counterterrorism 
strategy and the national strategy for countering violent 
extremist groups should include attention to and investment in 
women's roles, both in terms of how the U.S. Government can 
involve women leaders as well as steps to de-radicalize and 
reintegrate female fighters.
    Efforts to address women's roles should not be detached 
from broader security sector policy and initiatives which 
result in missed opportunities where women's contributions 
could have improved the effectiveness of U.S. operations.
    Second, to maximize the return on defense investments, the 
U.S. Government should increase resources to facilitate women's 
involvement in efforts to counterterrorism and violent 
extremism.
    Investment by the United States in this area have been 
limited to small grants or standalone programs. The Defense 
Department, the State Department, and USAID should invest more 
in women's roles to counterterrorism and violent extremism.
    This includes through prevention-related funds such as ESF 
but also security funds such as antiterrorism and law 
enforcement programs.
    Currently, these do too little to support the role of 
female security officials, for example, and with the proposed 
cuts to diplomacy and development there's a risk that funding 
for women's contributions to security will be decreased, which 
will in turn decrease the effectiveness of U.S. security 
investments.
    Retired General Allen, former commander of the 
International Security Assistance Force in Afghanistan, 
observed from his time that by empowering women we can make 
them a force to reduce the reality of radicalization, calling 
it an investment that pays off in virtually every occasion 
where I've had the opportunity to see it.
    He advocated increasing funding to help women 
counterterrorism including by making Defense Department money 
available for State Department-run programs in this area.
    Third, the U.S. Government should address the specific 
needs and experiences of women. U.S. efforts to reintegrate 
returning fighters into communities should address the 
motivations and grievances of female fighters, whether in 
Columbia, Europe, or elsewhere.
    Finally, in light of evidence that terrorists and violent 
extremist groups are exploiting the absence of female--of women 
in security sectors, U.S. security cooperation efforts should 
help countries to increase the recruitment, retention, and 
advancement of women in their security sectors.
    Such efforts should target women in uniformed roles and in 
leadership positions in order to ensure they can shape 
engagements with communities and influence policy decisions.
    U.S. Government training programs should require that all 
countries participating in U.S.-provided security and justice 
programs should send delegations of at least 30 percent women 
to ensure that women have the opportunity to benefit from our 
investments.
    Congress and this committee can work to hold the 
administration accountable for ensuring that its efforts to 
counterterrorism and violent extremism invest in an important 
but overlooked strategy--the inclusion of women.
    Thank you.
    [The prepared statement of Ms. Bigio follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you very much. I will now recognize myself 
for questions.
    I appreciate your very good information about an issue that 
has not gotten much attention at all on the fight against 
terrorism since 9/11 and really before that, and so I want to 
speak on behalf of all--the entire subcommittee that we 
appreciate your testimony and also your written testimony as 
well. It is fascinating.
    Let me ask this question to all four of you. You have given 
us a lot of information--good information, valuable 
information.
    I hope that in the fight against terrorism, if we can use 
that word, we refocus on the importance of the role of women in 
solving this problem but also in seeing how intricately 
entwined women are in the whole process of fighting terrorism--
women as victims, women as enablers, women as problem solvers--
all three.
    So be specific in what we can do right now to change this 
focus and include the role of women in those areas I mentioned, 
primarily in fighting extremism and being enablers of 
extremism, if I can use those two concepts.
    If you can just be specific--I will start with you, Dr. 
Hudson.
    Ms. Hudson. Thank you, Chairman Poe. Very nice to address 
that very important question.
    In my line of work at the Bush School, we look at intel 
quite a bit and one of the things that I've argued in previous 
publications is that we are not tracking the types of things 
that we need to track.
    We could have been much more aware of what was going on 
with groups such as Boko Haram if we had been tracking things 
such as bride price trajectories.
    One of the most fascinating pieces of research I saw came 
from the West African situation, which has been roiled by civil 
war, and they found that the rebel groups were--had so much 
more success recruiting in areas where the rate of polygamy had 
risen as a result of economic setbacks, pricing young men out 
of the market.
    There's also, I think, early warning to be seen in things 
such as sex ratio alterations. You know, we think of there 
being a deficit of girls in China and India.
    But do you know there's now 19 nations that have abnormal 
birth sex ratios? And they include nations that definitely need 
to be on our radar screen--Azerbaijan, Armenia, Moldova, 
Albania, and others.
    What I am suggesting is that the means by which women are 
subordinated in these types of societies through bride price, 
through polygamy, through sex ratio alteration has to be part 
of our intelligence gathering--has to be part of our 
situational awareness and of our understanding of early warning 
indicators.
    We've not seen that to date and that is certainly something 
that I would work on. And I will yield the floor, but I will 
also say that disrupting women's disempowerment at the 
household level, focussing on things like property rights, 
inheritance rights, focussing on things such as child custody, 
divorce, age at marriage, this is where the rubber hits the 
road for the empowerment of women.
    We have found that it's absolutely possible to disempower 
women and yet have a high female literacy rate, a high female 
labor force participation rate, high female representation in 
Parliament.
    Those things don't touch the lives of women at the 
household level where their voice will either be heard or 
ignored. So disrupting that syndrome is also important.
    Mr. Poe. Mr. Rafiq.
    Mr. Rafiq. Thank you, Chairman Poe, for your question.
    I think it's a very good question and I think that there is 
a broader answer and then a more specific answer.
    The broader answer is that too often governments at the 
U.S. and the U.K.--my home country--we suffer from a lack of 
political consistency and the will to see things through.
    Even over the last 10 years, there have been a number of 
very, very good projects which have established criterias of 
success and the metrics have been achieved and then after a 
year it has been decided that those projects aren't going to be 
carried on or supported anymore.
    But to be more specific, you asked for one or two clear 
things. I think, first of all, you know, people talk about this 
being a problem of Islam and then other people say it's got 
nothing to do with Islam.
    The reality is it's somewhere in the middle. It has 
something to do with certain interpretations of Islam. And one 
of the things that we need to do within certainly Western 
countries a lot more is help women become at the forefront of 
reform.
    Theological reform is absolutely critical to solving this 
problem and it's reform around gender extremism but also a 
reform around what the role of women can be within Muslim 
communities.
    But too many people, too many families, too many Muslims 
that live in either the U.K. or the U.S. are living almost 
parallel lives.
    There is the rule of law and what's expected and what--of 
women generally and what is allowed--what women are allowed to 
do generally and then there are women within certainly more 
conservative fundamentalist families and households. I think 
that reform is absolutely critical. But women need to be at the 
forefront of that.
    The other thing I think that's very, very important is if 
we look at the deliverance, the piety, the empowerment promises 
that groups like ISIS have, we have to take that away from them 
and we have to encourage Muslim women who are in the U.S. and 
around the world to become--take leadership roles in actually--
taking on more mainstream civil society projects because if we 
can do that, that'll take away the lure from groups like al-
Qaeda and ISIS, and I think that this is something that can be 
done both in the offline world and in the online world.
    You know, people talk about the internet radicalizing 
people. Well, nobody goes online to buy a pair of shoes or a 
handbag and somebody ends up becoming a jihadist or a jihadi 
bride.
    They need to be looking for something and far too--there 
are far too many messages online that are actually recruiting 
young female people--young women and we need to help young 
women flood the internet with good ideas.
    Mr. Poe. Thank you. I am out of time, so if we have time 
we'll come back to the last two witnesses to answer that 
question. So save your answers that you wrote notes about.
    I yield to the gentleman from Massachusetts, the ranking 
member, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    Ms. Bigio, I was--I recall a period when I think the 
earliest or among the earlier training of women police, I was 
in Afghanistan. General Allen was there at the time, as you 
mentioned. I got to see some of the early training and actually 
participate a little bit from my former law enforcement role 
before I got to Congress.
    But I am curious, since then are there more women training 
women now? I mean, back then, it was multi-country training but 
it was men getting involved in a lot of that training.
    Are women training women? Have you seen that and how 
successful has that been? I often envision some of our own U.S. 
police officers going over there, training as well. But can you 
comment on that?
    Ms. Bigio. Thank you for the important question. And as you 
note, there have been some programs which the U.S. Government 
has invested in training women in security sectors and the 
police and military and working to help increase their 
representation.
    There's far too little being done right now by the U.S. 
Government in our--in the U.S. Government security cooperation 
programs to really help ensure that women have the opportunity 
serve and to contribute whether in uniform or in policy making 
roles.
    Mr. Keating. Yes, I do believe that. I believe that it's 
one thing to train. It's another thing to show the example----
    Ms. Bigio. Right.
    Mr. Keating [continuing]. That there are women doing that 
in our country as well. So thank you.
    Another important question I had for all of you, if you 
will, because it's one that I find very difficult for us as a 
barrier. Let me use the example of early-age marriage, which I 
am sure Dr. Hudson has done research in, too, in the school.
    How do we deal with the cultural norms? It's great that we 
are coming in and we want to do some of these things. We are 
beginning to get statistics and recognize the problems before 
they really incubate to a greater extent.
    Now, how do we deal with that? I mean, these countries, for 
instance, with early-age marriages that's the norm or it's 
culturally accepted there.
    What kind of barriers are there and how can we overcome 
some of those barriers?
    Ms. Hudson. That's terrific. Actually, that's one of the 
core issues, I think, that breeds unstable societies. I want to 
make a general comment and then make some specific comments and 
then defer to my colleagues.
    I know the CFR has done some terrific work on child 
marriage. I want to make sure that Ms. Bigio also can answer 
here.
    But the first one is the notion that it's cultural is very 
interesting because we've seen striking success in regionally-
based pacts, if you will--mutual understanding--to raise the 
marriage age.
    So in societies where we've seen very low age of marriage, 
by law the marriage age is now being raised. Okay.
    Now, of course, as you can imagine, there's a huge 
disconnect between the new law and what's actually happening on 
the ground. But the first step was getting the law changed and 
we've seen stunning success in that over the past 10 years.
    The second thing that has to do--that you have to do once 
you have the law changed is to change the incentive structure.
    In bride price societies, fathers of the bride can't marry 
off their sons until they've married off their daughters first 
to get the bride price so they can then afford to pay the bride 
price back to their sons' wives' family and that pushes the age 
of marriage down for girls vis-a-vis the age of marriage for 
boys.
    And so we can begin to disrupt these bride price societies 
and we've seen some fascinating programs that attempt to offset 
the incentive to, in a sense, sell off these girls young.
    So I think on a conceptual level, change is possible. We've 
seen it in the raising of the age of marriage for girls across 
continents and, second of all, we've seen some very innovative 
programming which the U.S. could back that begins to disrupt 
these types of syndromes.
    Ms. Bigio. I would note, just an addition on innovative 
programs is--are opportunities to invest more in education so 
where we see incentives for girls to continue their education 
through secondary schools that that helps to raise the age in 
which they marry.
    Mr. Keating. Great.
    Just quickly, I just offer you all the opportunity--if you 
have--you think there are portals where we can get involved 
directly in an oversight capacity or there are upcoming 
opportunities to comment on issues that could be important as 
well as learn more about some of the things that are working, 
if you could feel free to contact us in the future as we move 
forward on this. If we can be helpful intervening or at least 
advocating for these things.
    And I will yield back, Chairman. I have a lot of other 
questions. This is really an important hearing we are having.
    Mr. Poe. I thank the gentleman.
    The chair will recognize the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman. I thank the witnesses 
for being here.
    I am going to take this opportunity to pound a drum that 
the members of the committee who are here have heard me pound 
before and perhaps you haven't and I hope you will join me and 
assist me.
    While I sit on this side of the chair, which might indicate 
a party affiliation, I was not elected by my constituents to 
serve along the lines or ideas of any particular individual 
whether they occupy this August legislative body or a beautiful 
white home on 1600 Pennsylvania Avenue, and I am a staunch 
advocate of the McGovern-Dole school feeding program which we 
have seen cuts in over the past year--not only cuts but 
proposed further cuts.
    I would speak to essentially the reduction and 
radicalization amongst males in a populace wherein females are 
empowered by virtue of education.
    I would ask you all if that's not an accurate 
characteristic, and I am going to bounce around the committee 
with no intended offense.
    Ms. Bigio, am I pronouncing it right? Where you see more 
educated women do you see a reduction in radicalization amongst 
the male population? And I got--and I apologize because I am 
running on a timer.
    And so what the school feeding program does is creates an 
alternative to a paradigm where in a world of subsistence 
farming a mother and father might need to choose whether to put 
their daughter in a field to essentially cultivate the food 
that she might eat or where they might allow her to gain an 
education because the food that she needs in order to live is 
provided in exchange, essentially, for that education. Is that 
an accurate characterization, Mr. Rafiq?
    Mr. Rafiq. Yes, absolutely.
    Mr. Garrett. Again, and I apologize for how I do this. But 
I hope that there are people listening not only in this room 
but across this country and this city and across the world.
    And so when you see female educational attainment we also 
see a corresponding rise in economic opportunity within a 
society for both men and women. Is that generally accurate, Ms. 
Popal?
    Ms. Popal. Yes, it is.
    Mr. Garrett. And so when you see that rise in economic 
empowerment we see a corresponding rise in things like hope and 
it's perhaps cliche but probably quite real that a young person 
who has hope to aspire toward some dream or goal in the future 
is less likely to strap a bomb vest to themselves, for example. 
Is that broadly accurate, Ms. Hudson?
    Ms. Hudson. Absolutely. Grievance comes from despair.
    Mr. Garrett. And so the problem that I would see with this 
program is that it's hard to quantify the terrorists who were 
never created. In other words, we invest on the front end.
    We don't know what horrible acts we've prevented on the 
back end and then a way that we can do this that empowers not 
just women but people is school feeding programs which 
encourages the education of young women, which elevates almost 
uniformly entire societies and leads to a reduction in 
radicalization.
    I've got 2 minutes remaining. If you all can try to keep to 
30 seconds.
    Dr. Hudson, would you--and just bounce down the line--speak 
to what you think might be positive outcomes of school feeding 
and if this might help empower women and reduce radicalization 
in nations where these sorts of things are a problem.
    Ms. Hudson. Absolutely. The education of young people, both 
female and male, offers greater opportunities for economic 
advancement for them personally and for their families.
    It also offers them larger horizons in terms of greater 
knowledge about their world and their place in it and what they 
can do for good.
    So in all measures, both for girls and for boys, keeping 
them in school and allowing them a basic education through 
school feeding programs is laudatory.
    Mr. Garrett. Thank you. And I think it was--I believe, and 
I might misquote here--General Mattis, who said, ``We can 
either provide foreign aid or we can start buying more bombs 
and bullets.''
    And having served in the military, I understand that 
there's a time and a place for everything. But I would rather 
help people than kill them.
    Mr. Rafiq, if you could speak to school feeding and the 
potential to help women and thus help reduce radicalization and 
reduce terrorism.
    Mr. Rafiq. I think, certainly, it's one of the strategies 
that will pay off some dividends. However, I think there is a 
mistake to think that lack of education is the thing that 
actually drives extremism and terrorism.
    The World Bank did a survey of foreign fighters in ISIS 
joint territory--held territory and they found that the 
overwhelming majority of people had a higher education, a 
higher social standing than the national average of the 
countries that they came from.
    Zawahiri, the current leader of al-Qaeda, is a leading 
surgeon--doctor. Bin Laden was an engineer, and there are many, 
many other people.
    Mr. Garrett. And we certainly saw this, right, and I think 
the bin Laden is an engineer paradigm is a great one. But we 
saw this even during the mujahedeen's fight against the Soviet 
Union in Afghanistan.
    Having said that, it was almost a rite of passage and I 
would point out that the countries from which these fighters 
generally come are countries where women aren't empowered 
economically and oftentimes aren't educated. So it might be a 
chicken-and-egg scenario.
    I apologize. I am out of time. May I--would the chair 
indulge me for 45 seconds so I can let Ms. Popal and Ms. Bigio 
have a moment?
    Mr. Poe. I will indulge you, but you can get more questions 
asked in 5 minutes than anybody I've ever met. So--and fast as 
well. But yes, you may.
    Mr. Garrett. I just love being able to lead, Judge.
    Ms. Popal, if you could speak to it.
    Ms. Popal. Yes. I actually would like to share just an 
example.
    One of the women in our book, ``We Are Afghan Women: Voices 
of Hope,'' Razia Jan, is the founder of the Zabuli Education 
Center.
    It's a private K through 12 girls' school that provides 
more than 500 girls in Afghanistan with free education, 
uniforms, shoes, warm coats, and meals.
    That school has changed men's attitudes so much so that 
they're willing to protect it and to send their daughters to 
college, and this is just one concrete example that I wanted to 
share with you all.
    Mr. Garrett. Thank you.
    Ms. Bigio--apologize if I get it wrong.
    Ms. Bigio. Thank you.
    No, it's critical that you're focussing on this--on this 
important issue. We certainly see that providing opportunities 
for women and girls including for education is what seeds the 
ground for them to be able to contribute fully to their 
society.
    And when you have space in the education programs where you 
have boys and girls learning together, engaging in dialogue 
together, it forms an avenue for them to look at solving 
problems together in their societies as well.
    And so you're bringing all of your resources in that 
country together to advance and pursue opportunities that will 
then help to counter radicalization efforts.
    I thank you all. Thanks to the chair and the other members 
for their indulgence.
    Mr. Poe. I thank the gentleman from Virginia.
    The chair recognizes the gentle lady from Florida, Ms. 
Frankel, who was the person who had the idea to have this 
hearing. I will recognize the gentle lady from Florida.
    Ms. Frankel. Thank you. It takes a woman, right?
    Mr. Poe. That's right.
    Ms. Frankel. So thank you, Mr. Poe. Thank you, gentlemen, 
for having this hearing. Thank you, witnesses.
    I am very taken by Dr. Hudson--your testimony that there 
were 11 indicators of empowerment at the household level that 
you say are the strongest predictor of terrorism.
    Could you quickly tell me what they are?
    Ms. Hudson. I brought all of my printouts for you if you 
ever wanted to see them. [Laughter.]
    Ms. Frankel. Oh, I would like to see them.
    Ms. Hudson. Our 11 measures----
    Mr. Poe. Without objection, they will be made part of the 
record.
    Ms. Hudson. Oh, okay.
    Ms. Frankel. That would be terrific. Okay. That would be 
great.
    Ms. Hudson. May I just preface it by telling you an 
anecdote, which is that about 10 years ago I had a critical 
conversation with an Afghan female member of Parliament and I 
was gushing naively about how empowered she was and, you know, 
new generation of Afghan women.
    And she said, ``Valerie, I could go home today and my 
husband could say, `I divorce you' three times and I would be 
divorced, and I would have nothing from my household. I would 
not be able to take anything with me. I would not have any 
place to go.''
    She said, ``Even if I don't get divorced, I may have no say 
in when my daughters and sons marry and who they marry, right. 
How empowered am I really?'' And I realized that my focus on 
these broader measures was beside the point.
    We really need to look at the straitjacket under which 
women live within their own households, according to marriage 
and personal status law.
    So we look at things such as patrilocal marriage--does the 
bride have to move to the groom's household upon marriage--
polygymy, cousin marriage, bride price, level of domestic 
violence within the home, whether there's female sanction for 
femicide in the home and whether you can have legal exemption 
if you rape a woman if you offer to marry her. So----
    Ms. Frankel. Let me just--let me ask you this. How did you 
come up with the 11 indicators or did you first look at factors 
that correlate with terrorism or you knew what the 11 were?
    Ms. Hudson. No. What we had done is based on almost 20 
years of research. We understood that cage that's right there 
at the household level and it's a cage that is created through 
marriage law and personal status law and property rights that 
disempowers the woman specifically within her household.
    So she can't access the resources. She doesn't have the say 
within her household. She can be beaten in her household, and 
so forth.
    Ms. Frankel. So just to get the correlation with the--with 
the terrorism, is this making women less effective in terms of 
stopping----
    Ms. Hudson. You bet.
    Ms. Frankel [continuing]. Their son or maybe even their 
daughter from becoming--okay.
    Ms. Hudson. Absolutely right.
    Ms. Frankel. What I am curious--I mean, I don't want to 
start a fight here--is what the other three of you think of 
this research.
    Mr. Rafiq. I think the research is absolutely fantastic and 
I agree on the whole. But I think we have to recognize 
something--that women from Western countries have left 
societies where they have had--they've had full rights or 
perceived to have full rights within the law and they've 
decided to go and join ISIS for even less rights.
    They've decided to go and join ISIS where they could be 
beaten up. They could--they could have--their husbands could 
have more than one wife and, in many cases, did, and they 
decide to go there.
    So I think just to look at the grievances on their own I 
think is not enough because----
    Ms. Frankel. But she--I think she's talking--are you 
talking about, though, the grievances where the terrorism is 
actually taking place or----
    Ms. Hudson. When I talk about grievances, I am focussing on 
the grievances that young men experience that make them prey to 
these recruiters.
    So grievances over bride price, grievances over scarcity of 
women, grievances over lack of economic opportunity.
    So I completely agree with Dr. Rafiq that one of the most 
interesting things is to examine the situation of young women 
who have left countries that supposedly guarantee their rights 
to join places like ISIS that don't. But actually I don't think 
we disagree.
    Ms. Frankel. No, I think--because I--okay, because I'm just 
trying to understand this. I think you're talking about factors 
that are actually motivating the men to become terrorists----
    Ms. Hudson. Yes. Right.
    Ms. Frankel [continuing]. Because the women are being 
segregated and there's not enough women to marry. I am just 
saying, there's not enough women to marry or there's not enough 
mothers to say, don't do this kind of thing.
    I would like to hear the other two--what you think.
    Ms. Popal. So I think in the context of Afghanistan, you 
have a lot of women in rural areas who don't have the same 
opportunities that women in urban areas have and generally the 
level of education and the level of literacy is lower.
    But I think it's important to remember that, you know, 
sustainable development programs, if done correctly, can really 
have an impact on the household level. So it doesn't 
necessarily have to start in the household and move outward. It 
can start outward and move inward.
    One example is the National Solidarity program. It's a 
government development program that created democratically-
elected community development councils and women have been a 
part of these councils in Afghanistan that essentially fund 
small-scale development projects.
    And one evaluation showed that the National Solidarity 
program increases girls' school attendance, their quality of 
learning.
    It increases child doctor and prenatal visits, the 
probability that a woman would be able to go see a doctor for 
her illness.
    It even creates sort of a durable increase in the provision 
of local government services specifically for women and it 
increases men's acceptance of female political participation 
and their participation in local governance.
    So I think that's important to remember.
    Ms. Bigio. I agree with--that it's critical that we look at 
what are the barriers that are preventing women from fully 
participating in society and some of these are legal.
    They're also cultural and structural barriers that prevent 
women from engaging in contributing in their families, in their 
communities, in government, in decision making roles in the 
security sector.
    And as we discussed earlier, it's critical that those 
policies and programs are shaped by the insights and 
perspectives that women can bring and their engagement with 
communities.
    So if there are laws or other barriers that are preventing 
women from engaging fully, then the resulting policies and 
programs will not be as effective in making sure--in promoting 
security in their countries.
    So it is critical to look at the legal, structural, and 
cultural barriers in a country that are preventing women from 
being full participants and in promoting security.
    Ms. Frankel. Thank you. My time is up. But I hope--maybe, 
Mr. Poe, when you--your turn is up, I know--when they get back 
to you--you had asked them to all give their suggestions.
    What we haven't heard, which I hope they can relay, is what 
is our State Department--what do our Federal agencies need to 
start doing better. That would be of good help to us.
    Mr. Poe. The chair recognizes the gentleman from Illinois, 
Mr. Schneider.
    Mr. Schneider. Thank you, and I want to thank the chair and 
the ranking member for having this meeting, my colleague from 
Florida for suggesting this meeting, and especially to the 
witnesses for your testimony today.
    This has been eye opening. I think we are talking about a 
very important issue.
    I am going to start with Ms. Bigio. You sparked a thought 
and it actually may relate to what Ms. Frankel was saying on 
policy making.
    You used the sense of we want to have at least 30 percent 
of the people on the ground as women. I think as we go into 
these programs, whether it is in uniform or not in uniform, 
should the programs--I am going to frame this--feel free to 
push back on it--is it better that we are doing separate 
programs for women?
    Parallel programs for women that we might be doing at the 
same time for men, integrated programs where it is for both 
women and men and putting that foot forward--does that make any 
sense?
    Ms. Bigio. It does, and I thank you for that great 
question.
    So there is incredible value in integrated programming and 
ensuring that men and women are together, learning and setting 
a norm that it is through the participation of men and women 
together in society serving side by side in the military, in 
the police, in legislatures, in government that together, 
combining their insights and perspectives, they will put 
forward the strongest and most effective policies and programs 
and strategies.
    So it is critical that we invest and continue to pursue 
programs like that, which is why the 30 percent quota is making 
sure that there are women represented there.
    Now, there is an importance of targeted programming to 
provide women with professional development, networking, 
mentoring, to help them fast track their careers in sectors 
where they have been under represented.
    So when you're looking at programs to help increase 
representation of women in the police and military, for 
example, it's important to have training programs where they 
are working side by side with the male colleagues with whom 
they will serve, and it's also important to create networking 
and professional development opportunities for them so that 
they can discuss and address the barriers that they are sharing 
and experiencing in their careers.
    Mr. Schneider. All right. And this maybe is for the entire 
panel--I would imagine then in many of these communities having 
integrated programs is going to face resistance--that people 
will push back.
    How can we work with our resources with communities in 
which we are engaged to address that push back and create a 
resiliency to overcome those who are against us?
    Ms. Bigio. So yes, wherever these programs are offered they 
should be done in a culturally appropriate way.
    So first off, when people come to participate in training 
programs here in the U.S. Government, in regional center--in 
the Defense Department's regional security studies programs, 
for example, or in other programs here, that's an opportunity 
where men and women are training together and are learning 
together.
    So in the programs that we offer that's a critical space to 
ensure that we set aside slots and make sure that women have 
the opportunity to participate where right now they do not.
    In countries where there are different cultural practices, 
there it's taking the lead from our partners in the governments 
to understand what's the structure and set-up that will both--
that will best fit with the overall goal recognizing men and 
women are serving together then in those sectors in Afghanistan 
and Iraq.
    Men and women are serving together in the police, and so we 
do want to ensure that there are training programs and other 
areas where they are practicing that.
    Mr. Schneider. Anyone else want to add to that?
    Well, thank you. With that--Mr. Rafiq?
    Mr. Rafiq. No, I was just going to say that I think 
sometimes we have to be pragmatic and recognize that in some 
countries, for example, let's pick Saudi Arabia.
    If we were wanting to run programs in Saudi Arabia, it's 
just not going to be possible to be able to currently have 
programs where men and women are actually being trained 
together, and sometimes we have to take low-hanging fruit and 
eventually work to a situation where we can get and empower 
those countries to be in situations where they can have men and 
women working together and training together.
    Mr. Schneider. Thank you.
    With that, I yield back.
    Mr. Poe. I thank the gentleman.
    I am going to ask the last two witnesses the question that 
I asked the first two witnesses, and I am sure you remember the 
question.
    The question was, what can we do right now about this 
issue?
    Ms. Popal? And I want to thank you--I want to thank all of 
you. But I am fascinated with your background and you have 
tremendous insight into this very specific issue, as all four 
of you do.
    But go ahead.
    Ms. Popal. Thank you.
    I wanted to talk about two----
    Mr. Poe. Microphone on?
    Ms. Popal. Oh. I wanted to talk about two issues, just 
briefly.
    The first one is just reiterating the--reiterating the 
importance of education and really building critical thinking 
skills in women to be able to challenge some of these extremist 
narratives and allow them the confidence and the voice to be 
able to speak up and do that.
    There have been studies out there that have interviewed 
women and, unfortunately, there is not a lot of robust data on 
the role of women and countering violent extremism in 
Afghanistan.
    But what does exist really points to the fact that women do 
get listened to within the household but a lot of times they 
don't have the confidence, or they don't have the knowledge, or 
they don't have the education or the literacy to be able to 
push back in a way that make sense. So that would be one thing.
    The other point I wanted to talk about is just the 
importance of advancing economic opportunity. We, at the Bush 
Institute, are working on promoting a women's leadership 
program that focuses on women who are advancing economic 
opportunity for everyone, not just for other women, in their 
communities and their countries.
    And this is a multi-country program. It spans the Middle 
East, North Africa, and Afghanistan, and it's an effort to 
really show the value that women bring to societies as a whole.
    So, again, education and economic opportunity are two ways 
that we can work toward sustainable development in Afghanistan 
and that in and of itself will help counter violent extremism.
    Mr. Poe. Ms. Bigio, if you could be brief, I would 
appreciate it.
    Ms. Bigio. Thank you.
    Right now, the White House has the pen in developing a new 
national counterterrorism strategy and a new national strategy 
on countering violent extremist groups.
    These should include attention to women as enablers and 
mitigators of terrorism and it should include a specific 
objective and focus on these issues.
    Second is investment. As the budget is set, women are on 
the front lines already doing this work and the U.S. Government 
has done little to support them.
    This means ensuring that there are more economic support 
funds available as well as ensuring that the U.S. Government's 
security funds, whether antiterrorism or our funds to support 
police and military, that these pots are also used to support 
women in the security sector and ensure that they have an 
opportunity to serve more.
    To Mr. Keating's earlier question of the importance of 
increasing security cooperation efforts to support more female 
representation in police and military, there are women in the 
U.S. that--in police that could be training more of their 
counterparts.
    This is a decision in terms of contractors. We should 
ensure domestically we are leading by example. We are 
supporting the opportunities for women to serve in the military 
and police here and that they then have the opportunity to 
serve--to help train and support their counterparts around the 
world.
    Mr. Poe. Thank you. I yield to the ranking member, Mr. 
Keating, from Massachusetts.
    Mr. Keating. This is a quick round so I will only ask one 
question.
    We've learned, you know, this afternoon how much research--
decades of research has been done and how, with our 11 
indicators or more--we have more information.
    As we get that information, what is our State Department--
what is the U.S. Government as well as NGOs doing?
    When you're looking at where maybe the next wave of 
extremism is going to come--countries like Bangladesh, the 
Philippines, Southeast Asia--we know what's happening there.
    It would make great sense to me if we know these indicators 
and can get information on this. How well are we doing 
getting--trying to get ahead of the curve a little bit there?
    Ms. Hudson. I am so glad you asked that question because 
that's the question I've been asking myself.
    I received a 4-year $1.3 million grant from the Defense 
Department to do this research and I am having an awful hard 
time finding anyone in the Defense Department who would like to 
actually read this research or listen to this research.
    So I am searching for partners within the Defense 
Department who can take what we've done on the Defense 
Department's dime and begin to integrate it into intelligence 
and early warning indicators and also looking at practices, 
because nations know that they are destabilized by these 
practices.
    For example, the Saudi Government has placed a stiff cap on 
bride prices and wedding costs in order to prevent these types 
of inflationary bubbles that occur within their society.
    So I think there's a lot more to be done. Now, I know in 
the State Department we do have the Office of Global Women's 
Issues.
    But my understanding is that their voice has been muted. We 
do not have a global ambassador for women's issues, which is a 
serious lack on our part if we are going to take these issues, 
you know, as importantly as they should be.
    So I think there's a lot we need to do. But there's--as you 
say, we already know a lot. What's missing is the action 
channels to transfer these knowledge--this knowledge into 
programs and priorities and funding.
    Mr. Poe. Thank you.
    The chair recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. So I want to start out by suggesting that in 
the year 2018--and I understand that it's not tantamount to 
purchase, but that any country that institutes any practice 
that is called bride pricing might be someone who we should 
consider the nature of our business interaction with regardless 
of their culture, customs, or tradition.
    I mean, it's a head scratcher. I could talk about Saudi 
Arabia and lots of other countries for a long time and that's 
not what we are here for.
    Mr. Rafiq, I kind of gave you short shrift earlier and I 
want to give you an opportunity to circle back around. I think 
my assertion is, however, that in any culture where there's 
some degree of education and some degree of hope, which is 
usually provided in conjunction with education, radicalization 
is less prevalent. I am just going to give you the floor for 
the balance of my time.
    Mr. Rafiq. Thank you.
    I think that if we look at the term radicalization and 
radicalism, I think radicalism has often been the preserve of 
the middle class and the educated class.
    Whether that's far left radicalization or whether that's 
far right or whether, in this case, Islam is radicalization.
    And the problem that we have--look, I am totally in favor 
of fixing grievances. I am totally in favor of people becoming 
more educated because I think that can help civil society as a 
whole and can be a--help to build more resilient communities 
against a whole range of problems.
    But if we just focus on the grievance culture--if we just 
focus on the grievances--if we just focus on just the education 
side of it, well, the four of us here probably have our own 
personal grievances at this very moment in time.
    We can sleep tonight in our own beds. We'll probably have 
problems and my problem to me will be bigger than somebody 
else's problem and then tomorrow my problem might be something 
else, et cetera.
    I think that if we just focus on the grievances, we are 
going to be playing Whac-A-Mole. We should, as a civil society, 
educate people more because it will help.
    We should focus on grievances as a civil society but if we 
don't focus on the ideology--we don't focus on Islamism, and 
the--and reverse engineer the intellectual, the ideological, 
social, emotional, spiritual aspects of Islamism and Salafi 
jihadism, we won't fix this problem long term, and that's all I 
was saying.
    Mr. Garrett. So--no, and I think we found some commonality 
and I will tell you that it strikes me as interesting that we 
are--you know, I think we are asking Saudi Arabia to revise 
textbooks that they send literally across the globe while it's 
not negotiating trillion-dollar arms deals, right.
    And I have no problem with--now, I like the Saudis so long 
as they behave in a manner consistent behind closed doors as 
they do publicly and that's what makes me shake my head.
    And I understand that there are cultural differences and I 
respect them, and I think that we should respect individuals' 
rights to live as they choose.
    But in the society where individuals don't get to make that 
choice, I think that the United States foreign policy should be 
dictated by who we choose to do business with.
    It's more efficient than trying to figure out who you need 
to kill before they kill you.
    So thank you, Mr. Chairman, again, for your indulgence and 
thanks to the members of the panel.
    Mr. Poe. I thank the gentleman.
    The chair recognizes the gentle lady from Florida.
    Ms. Frankel. Thank you, Mr. Poe.
    I think one of the--among other disappointments of this 
administration has been the cutting off of health funds to 
women all over the world, cutting off the funds of the--cutting 
off the U.S. Population Fund, which I know does work with 
trafficking and child marriage prevention.
    I just--I would be interested in hearing--I should say, on 
the basis of what I think is a false premise that these 
organizations and NGOs and so forth are performing abortions, 
which they're not.
    But I would like to hear your opinion on that and in terms 
of how cutting off so much--so many millions of dollars toward 
women's health and preventing some of these practices affects 
terrorism.
    Ms. Hudson. Well, we know that demographic factors 
absolutely play into terrorism. Researchers have shown that 
youth bulges especially are associated with internal 
instability and conflict within nation states.
    I have lived long enough to know that women do not wish to 
have more children than they can take care of. It is when women 
do not have choice over how many children they have that you 
get youth bulges.
    So I think any policy which reduces women's access to means 
by which they can control how many children they have is at 
odds with our desire to see the world be a more peaceful place.
    That having been said, I agree with you that while 
certainly it's a defensible position to say that U.S. funds 
should not go toward organizations that perform abortions, I 
can see that.
    I think the distinction you made with organizations----
    Ms. Frankel. Incidentally, that's not my position but that 
is the position of the United States Government.
    Ms. Hudson. Exactly right.
    Ms. Frankel. Yes.
    Ms. Hudson. I can see that what you're saying is that there 
are many organizations that do not perform abortion but 
nevertheless tell women that abortion is an option and send 
them off to, you know, to sources where that may be had.
    I think that we, you know, probably do have an interest in 
seeing those organizations succeed. So I agree with you that it 
is odd that we have cut off money to organizations that don't 
perform abortions but yet apprise women of means by which to 
control their fertility.
    Ms. Bigio. Having access to health care is also one of the 
barriers that prevent women from being able to engage fully in 
society.
    So when they do not have access to the services that they 
need to ensure their wellbeing and the wellbeing of their 
families, then this is a barrier, again, to a society being 
able to draw on its full population to promote prosperity and 
stability.
    So yes, investment in health care, for example, for women 
and children is part of the full equation to ensure that women 
and children have the health and opportunity to contribute.
    Mr. Poe. The gentle lady yields back her time? She does.
    Thank you very much, all of you, for being here today. We 
appreciate it immensely.
    This has been one of the better informative hearings that 
we've had in a long time and I thank you for your time and the 
information.
    All of the members of the subcommittee, even those that 
were not here, may have questions of you and they will produce 
those in writing and then we would like a written response on a 
timely basis, if you will.
    I thank you very much. This subcommittee hearing is 
adjourned.
    [Whereupon, at 3:55 p.m., the committee was adjourned.]

                              
                                  

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
